                      AUDIT REPORT
                         13-05




Audit of Computer Security: GPO’s Risk Acceptance Process for
            Major Legacy and Minor Applications

                    February 13, 2013
Date
February 13, 2013
To
Chief Information Officer
From
Inspector General
Subject
Audit of Computer Security: GPO’s Risk Acceptance Process for Major Legacy and
Minor Applications
Report Number 13-05

Enclosed please find the subject final report. Please refer to the “Results in Brief” for
the overall audit results. Our evaluation of your response has been incorporated
into the body of the report and the response is included in its entirety at
Appendix B. Management either concurred or partially concurred with the
recommendations. Partial concurrence was based on budgetary limitations. We
consider management’s comments responsive in all material aspects to the
recommendations. The recommendations are resolved and will remain open
pending our verification of the completion of the agreed upon actions.

We appreciate the courtesies extended to the audit staff. If you have any questions
or comments about this report, please do not hesitate to contact me at
(202) 512-0039.




MICHAEL A. RAPONI
Inspector General

Attachment
cc:
Acting Public Printer
Assistant Public Printer, Operations
General Counsel
Contents

Introduction .................................................................................................................................................. 1

Results in Brief ............................................................................................................................................. 3

Background .................................................................................................................................................. 5

Results and Recommendations ............................................................................................................ 7

Appendix A – Objectives, Scope, and Methodology ...................................................................... 16

Appendix B – Management’s Response ............................................................................................. 18

Appendix C - Status of Recommendations ....................................................................................... 21

Appendix D - Report Distribution........................................................................................................ 22

Major Contributors.................................................................................................................................... 23
                          Office of Inspector General

Report Number 13- 05                                      February 13, 2013

  Audit of Computer Security: GPO’s Risk Acceptance Process for
              Major Legacy and Minor Applications

Introduction

In September 2012, Information Technology & Security (IT&S) requested the Acting
Public Printer accept the security risk for eight of its 16 major legacy applications.
IT&S reported that none of 16 applications have completed a Certification and
Accreditation (C&A). IT&S reported many of the eight major applications
recommended for potential risk acceptance have been in operation for more than 20
years without any known IT security incident or fraudulent usage incident. For the
remaining major legacy applications, GPO would allocate adequate resources for
bringing those eight applications into full compliance with security requirements.

The eight major legacy applications support both GPO’s print procurement
programs and print production operations. GPO's print procurement programs
provide comprehensive print procurement services to the entire federal
government. The print procurement process utilizes predominately manual
processes with information organized in a now aging computer mainframe
environment. GPO's print production operations are configured primarily to meet
the basic needs of Congress. GPO produces the daily and permanent editions — in
both online and print formats — of the Congressional Record, bills, resolutions,
amendments, hearings, committee reports, committee prints, documents,
stationery, and a wide variety of other products. GPO is in the process of increasing
efficiencies within the print procurement process and Plant Operations and is
planning to reduce its reliance on existing mainframe technology.

The Acting Public Printer requested the OIG provide input into the risk acceptance
request.

IT&S has primary responsibility for information technology (IT) security policy and
security controls that protect the confidentiality, integrity, and availability of IT
systems and data. IT&S conducts C&As. A C&A requires assessing risk, planning
security, testing of minimum security controls, creating plans of actions for
identified weaknesses, and mitigating risks. An authorizing officer within IT&S
reviews the results of the certification and accredits the system when determining
that the system’s operation poses minimal security risk. GPO has 25 major
applications and 206 minor applications. IT&S classified 16 of the 25 as major
legacy applications. Fourteen of the 16 major legacy applications operate in a
mainframe environment.


                                          1
Office of Management and Budget (OMB) Circular No. A-130, Management of
Federal Information Resources, Revised, December 2000, defines a major
information system as an information system requiring special management
attention because of its importance to the mission of an agency; its high
development, operating, or maintenance costs; or its significant role in
administering agency programs, finances, property, or other resources. Major
applications are by definition major information systems. According to National
Institute of Standards and Technology (NIST) Federal Information Processing
Standards (FIPS) Publication 199, “Standards for Security Categorization of Federal
Information and Information Systems,” February 2004, a major application is
expected to have a risk impact level of either moderate or high.

NIST Special Publication 800-37, “Guide for Applying the Risk Management
Framework to Federal Information Systems,” February 2010, defines a minor
application as any application not a major application and requiring attention to
security based on the risk and magnitude of harm resulting from the loss, misuse, or
unauthorized access to or modification of information in the application. Minor
applications are typically included as part of a general support system. Specific
system security plans for minor applications are not required because the security
controls for those applications are typically provided by the general support system
or major application in which they operate. Minor applications are expected to have
a risk impact level of either low or moderate.

We conducted this audit to answer the following question: “What process did GPO
follow when accepting risks associated with major legacy and minor applications?”

To accomplish our audit objective, we reviewed policies and procedures in place
from September to December 2012. We reviewed risk assessments and risk
acceptance documentation for the eight major legacy applications IT&S reported in
September 2012. To gain an understanding of policies, procedures, systems, and
processes related to risk assessment and acceptance relating to IT, we conducted
interviews with GPO staff to gain an understanding of applicable processes. We also
interviewed key management officials responsible for establishing and monitoring
the risk acceptance process; and reviewing and approving the acceptance of risk.
We randomly selected four minor applications to confirm GPO’s statement that
C&A’s and risk assessments were not conducted and we tested for the minor
application’s inclusion into umbrella security controls associated with either a
general support system or major application.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence that provides a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Our objective, scope, methodology, and criteria are
detailed in Appendix A.
                                          2
Results in Brief

GPO told us they considered the configuration of user accounts, stage of the system
life cycle, years in operations without any known security incidents, sensitivity of
the data stored, and monitoring results in making its risk acceptance decision.

While we agree this is important information, we also believe GPO could benefit by
obtaining additional information to make a risk acceptance decision for its major
legacy and minor applications. For the eight major legacy applications, our audit
revealed: (1) applications were not categorized as low, moderate, or high risk based
on the confidentiality, integrity, and availability of the information it stores,
processes, or transmits; (2) risk assessments were not conducted assessing the
sensitivity of data, threats, vulnerabilities, and effectiveness of current and/or
proposed safeguards or documenting the risk assessments; and (3) risk acceptance
procedures or guidelines were not fully developed. We believe this condition to be
true for all 16 legacy major applications. Without categorizing, conducting risk
assessments, and providing a uniform approach to risk acceptance, GPO cannot be
assured that management controls in place apply the appropriate level of controls
for preventing unauthorized access, use, disclosure, disruption, modification, or
destruction. Factors contributing to the deficiencies noted relate to availability of
resources—specifically, employees and funding. GPO reported that over the past 13
years staff supporting mainframe applications declined by 68 percent and that
vacancies were not filled. According to IT&S, funding is directed toward the Federal
Digital System, Passport Production System, Secure Credential Personalization
System, GPO’s Business Information System, Public Key Infrastructure, and the
General Support System.

For minor applications, IT&S reported streamlined security reviews are conducted
and the Authority to Operate process relies on continuous monitoring and change
management approved by the Configuration Control Board. However, GPO could
not demonstrate minor applications and subsystems with varying impact levels had
adequate protection established either by major applications or general support
systems. This was due to GPO’s use of a streamlined security process.

If an incident were to occur, GPO could experience anywhere from minor delays to
major service disruptions. For example, GPO's print procurement process relies on
major legacy applications to generate random and rotating potential vendor lists for
solicitations based upon order specifications, allow print procurement customers to
place orders directly with a GPO contractor, format payment files to produce checks,
provide order entry capability, order status, contractor performance history, quality
records, exception reports, and order-tracking.

For GPO's print production operations, a senior manager told us if the Production on
Estimating and Planning System, a major legacy application, were to go offline, the


                                          3
impact would greatly affect GPO’s ability to provide Congressional and executive
agency publications.

Recommendations

To strengthen GPO’s risk acceptance process, we recommend that the Chief
Information Officer:

1. Categorize applications as low, moderate, or high risk based on the
   confidentiality, integrity, and availability of the information it stores, process, or
   transmits.

2. Conduct risk assessments that include, at a minimum, an assessment of the
   sensitivity of data, threats, vulnerabilities, and effectiveness of current/proposed
   safeguards, and document the risk assessments.

3. Develop procedures or guidance that adequately provide detailed instructions
   for risk acceptance.

4. Determine if each major application or general support system provides
   adequate protection to subordinate minor applications.

5. Inform business units about the exposure and potential impact on the business
   unit's operations if the security solution in regard to the identified risk(s) is not
   feasible or cannot be implemented.

Management’s Response

The Chief Information Officer indicated these recommendations are reasonable
activities that generally require long-term remediation actions and require a significant
investment by GPO. IT&S is working to implement OIG's recommendations.

Management either concurred or partially concurred with the recommendations.
Partial concurrence was based on budgetary limitations. We consider
management’s planned actions responsive to the recommendations. The
recommendations are resolved and will remain open until planned action is
complete.




                                             4
Background

In a memorandum dated September 13, 2012, IT&S reported that management
would accept the risk for eight of its 16 major legacy applications without
conducting a C&A or having any security related documentation. For the remaining
eight major applications, GPO would allocate adequate resources for bringing those
eight applications into full compliance with GPO Directive 825.33B, “Information
Technology Security Program Statement of Policy,” May 24, 2011. The eight major
legacy applications are listed below.

•     Automated Bid Lists System (ABLS)
•     GPO Printing Request Order Control (GPOPROC)
•     Microcomp
•     Paybase
•     Procurement Information Control System (PICS)
•     PICSWEB
•     Production Estimating and Planning System (PEPS)
•     Retail Order Processing System (ROPS)
In conjunction with accepting the risk for the major legacy applications, IT&S asked
OIG on September 18, 2012, for closure of the following open recommendations: 1

•     OIG Recommendation 10-03-04 – “Perform periodic security testing of all major
      applications.”
•     OIG Recommendation 10-03-16 – “Produce security plans for all major
      applications.”
•     OIG Recommendation 10-03-17 – “Produce risk assessments for all major
      applications.”
•     OIG Recommendation 10-03-18 – “Define required security controls and
      document in security plans for all major applications.”
•     OIG Recommendation 10-03-19 – “Certify and accredit all major applications.”

IT&S noted, however, eight additional major applications for which deficiencies and
recommendations still apply will continue to operate within the boundaries of GPO’s
current plan.

IT&S also reported streamlined security reviews are conducted for minor
applications and the Authority to Operate process relies on continuous monitoring
and change management approved by the Configuration Control Board.




1
    OIG Report Number 10-03, GPO's Compliance with FISMA, dated January 12, 2010.


                                                 5
Federal Security Practices

The E-Government Act of 2002 (Public Law 107-347)—passed and signed into law
in December 2002—recognized the importance of information security to the
economic and national security interests of the United States. Title III of that Act,
entitled the Federal Information Security Management Act (FISMA), tasked NIST
with the responsibility for establishing standards and guidelines. Standards and
guidelines included standards for Federal agencies when categorizing information
as well as information systems collected or maintained by or on behalf of each
agency based on the objectives of providing appropriate levels of information
security according to a range of risk levels.

Federal security practices require that agencies assess the risk and magnitude of
harm that could result from unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems. Both FIPS 199
and related NIST guidance provide a common framework for categorizing systems
according to risk. The framework establishes three levels of potential impact on
organizational operation, assets, or individuals should a breach of security occur—
high (severe or catastrophic), moderate (serious), and low (limited)—and is used to
determine the impact related to confidentiality, integrity, and availability.

Once determined, security categories are used with vulnerability and threat
information in determining the minimum security requirements for the system and
in assessing the risk to an organization. Risk assessments help ensure that the
greatest risks are identified and addressed, increase the understanding of risk, and
provide support for needed controls. OMB Circular No. A-130, Appendix III,
“Security of Federal Automated Information Resources,” prescribes that risk be
assessed when significant changes are made to major systems and applications in an
agency’s inventory, or at least every 3 years.

Consistent with NIST guidance, GPO Directive 825.33B, “Information Technology
Security Program Statement of Policy,” May 24, 2011, establishes policies, assigns
organizational and management roles and responsibilities, and establishes
minimum requirements for development, implementation, maintenance, and
oversight of an IT security program.

Although not subject to the E-Government Act of 2002, NIST Special Publications,
FIPS Publications, or OMB Circulars, GPO has generally adopted those standards and
operating procedures because they are not only consistent with its strategic goals
but are also best business practices.




                                          6
Prior OIG Audit Report

In June 2012, we reported 2 that strengthening security accreditation, a form of
quality control, would challenge managers and technical staff at all levels to
implement the most effective security controls possible for an information system.
Based on the review, we noted that before authorizing a hosted Web site to operate
not all elements of the C&A process were completed and recommended that GPO
conduct C&A activities reflecting a risk management framework approach
established in NIST Special Publication 8OO-37. In its management response, GPO
expressed concern about the recommendation, stating that complying would have
serious financial and resource implications on the Agency. As a result, management
stated it would conduct a cost-benefit analysis to determine if the recommendation
could be implemented within the fiscal and resource constraints of the Agency.

Results and Recommendations

GPO reported that it considered the following factors when determining the level of
risk acceptance for the eight major legacy applications.

•   Of the eight applications, seven are mainframe applications and by definition not
    Internet-facing applications, thereby reducing risk. A contracted service
    provider hosts GPO’s mainframe applications. The service provider has both a
    primary site and backup site for the mainframe. IT&S stated that such a
    configuration significantly reduces contingency risks. In addition, mainframe
    applications have two separate levels of user account security, a mainframe user
    account, and application user account. IT&S believes the two layers of security
    reduce risk.
•   GPO plans to retire and replace the eight major applications in the near term.
•   Many of the eight major applications recommended for potential risk acceptance
    have been in operation at GPO for more than 20 years without any known IT
    security incident or fraudulent usage incident.
•   Data stored and processed by applications are non-sensitive data.
•   The Agency uses an on-going monitoring program that encompasses annual-
    user access reviews, reviews of random transactions by the specific business
    areas on a periodic basis, and validating a sample of transactions for
    completeness and lack of any issues or fraud.
While GPO considered some important information, it may benefit GPO to assess the
risk and magnitude of harm that could result from unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information
systems. Our audit revealed: (1) applications were not categorized as low,
moderate, or high risk based on the confidentiality, integrity, and availability of the
information it stores, processes, or transmits; (2) risk assessments were not fully

2
  OIG Report Number 12-13, Audit of Computer Security Handling a Denial of Service Incident, dated
June 28, 2012.

                                                 7
completed; and (3) risk acceptance procedures or guidelines have not been
developed.

Without categorizing, conducting risk assessments, providing a uniform approach to
risk acceptance, and ensuring that minor applications are protected, management
was not assured that controls applied the appropriate levels to help prevent
unauthorized access, use, disclosure, disruption, modification, or destruction.
Management attributed deficiencies, in part, to a shortage of employees and lack of
funding. For example, we were told between the early 2000’s and 2013, IT staffing
that supported mainframe applications went from approximately 50 to 16,a decline
of 34 or 68 percent—without replacement fills for vacancies. The CIO also stated
that funding to address the deficiencies in resources was not available.

Categorization of Risk. GPO did not categorize applications as low impact, moderate
impact, or high impact based on the confidentiality, integrity, and availability of the
information it stores, process, or transmits. Best business practices support the use
of categorization.

FIPS 199 establishes security categories for Federal agencies to use in categorizing
information and information systems based on the potential impact associated with
the loss of confidentiality, integrity, or availability on an agency mission or
individual. The publication states that systems should be categorized as low,
moderate, or high based on the confidentiality, integrity, and availability of the
information it stores, processes, or transmits.

NIST FIPS 200, “Minimum Security Requirements for Federal Information and
Information Systems,” March 2006, is the second of the security standards
developed in response to FISMA and provides a minimum “foundational” level of
security controls to select for protecting the confidentiality, integrity, and
availability of information and systems. NIST Special Publications 800-53 Revised,
“Recommended Security Controls for Federal Information Systems and
Organizations,” August 2009, provides 17 control families for protecting Federal
information and information systems. The standard states that a selected set of
security controls must include one of three appropriately tailored security control
baselines from NIST Special Publication 800-53, which are associated with the
designated impact levels of the organizational information systems as determined
during the security categorization process.

Risk Assessment. A risk assessment is a process for analyzing and interpreting risk.
A risk assessment comprises three basic activities: (1) determining the
assessment's scope and methodology; (2) collecting and analyzing data; and (3)
interpreting the risk analysis results. GPO did not conduct risk assessments for the
8 major applications and 4 minor applications we reviewed.

The first steps in assessing risk include identifying the system under consideration,
the part of the system that will be analyzed, and the analytical method including its
                                           8
level of detail and formality. The assessment may be focused on areas where either
the degree of risk is unknown or is known to be high. Risk has many varying
components: assets, threats, vulnerabilities, safeguards, consequences, and
likelihood. This examination normally includes gathering data about the threatened
area and synthesizing and analyzing the information to make it useful.
Organizations use risk assessment in support of two related functions: acceptance
of risk and selection of cost-effective controls. Instances may, however, exist where
a risk is so significant even after steps have been taken to mitigate, a separate risk
acceptance approval by management could be appropriate.

GPO Directive 825.33B establishes policies, assigns organizational and management
roles and responsibilities, and establishes minimum requirements for the
development, implementation, maintenance, and oversight of an IT security
program. The policy requires that management conduct risk assessments on all
systems and computer installations at least once every 3 years or when a significant
change occurs to the configuration of the system. IT&S Information Security must
also review risk assessments annually to ensure the risks reflect the current
configuration of the system or installation. Risk assessments must be in writing and
include, at a minimum, sensitivity of data, threats, vulnerabilities, and effectiveness
of current/proposed safeguards. Sensitivity assessments must be conducted during
the initiation phase of the system’s development life cycle.

Appendix III of OMB Circular A-130 requires that Federal agencies plan for security,
ensure that appropriate officials are assigned security responsibilities, periodically
review the security controls in their information systems, and authorize system
processing prior to operations and periodically thereafter. OMB also requires
reauthorization of Federal systems—or reaccreditation—at least once every 3 years
through a C&A process. Certification of a system requires assessing risk, planning
security, testing of minimum security controls, creating plans of actions for
identified weaknesses, and mitigating risks. An authorizing officer appointed by the
agency, typically a senior executive, reviews the certification results and reaccredits
the system when that system’s operation poses minimal security risk.

Risk Acceptance Procedures or Guidelines. Management did not develop
procedures or guidelines for risk acceptance. At some point, management must
decide—based on the kind of severity of remaining risks—operation of the
computer system is acceptable. Managers do not always understand computer-
based risk because the type of risk may be different from risks previously associated
with the organization or function, the risk may be technical and difficult for a lay
person to understand or the proliferation and decentralization of computing power
can make it difficult to identify key assets that may be at risk.

Risk acceptance, like the selection of safeguards, should take into account various
factors aside from those addressed in the risk assessment. Risk acceptance should
also take into account the limitations of the risk assessment. Risk acceptance is


                                           9
      linked to selection of safeguards because, in some cases, risk may have to be
      accepted because safeguards are too expensive.

      Within the Federal Government, the acceptance of risk is closely linked with an
      authorization to use a computer system, often called accreditation. Accreditation is
      management’s acceptance of risk resulting in formal approval for the system to
      become operational or remain so. One of the two primary functions of risk
      management is the interpretation of risk for the purpose of risk acceptance.

      Table 1 depicts the details of the significant information available to GPO for each of
      eight major applications.

Table 1. Information Considered for the Risk Acceptance for the Eight Major Legacy Applications
(as of January 2013)
                                          Categorized                                                  Assessment
                                           based on                                                         of
                                          FIPS 199 as   Assessment                                    Effectiveness
                                             Low,          of the                                     of Current or
   Major                       Risk*      Medium, or    Sensitivity   Assessment    Assessment of       Proposed
   Legacy         C&A       Assessment     High Risk      of Data      of Threats   Vulnerabilities    Safeguards
Application    Completed?   Completed?    Completed?    Completed?    Completed?     Completed?        Completed?
 Reviewed       (Yes/No)     (Yes/No)      (Yes/No)      (Yes/No)      (Yes/No)       (Yes/No)          (Yes/No)
Automated
Bid List          No          Partial         No             No           No              No               No
System
GPO Printing
Request
                  No          Partial         No             No           No              No               No
Order
Control
Microcomp         No          Partial         No             No           No              No               No
Paybase           No          Partial         No             No           No              No               No
Procurement
Information
                  No          Partial         No             No           No              No               No
Control
System
Procurement
Information
                  No          Partial         No             No           No              No               No
Control
System Web
Production
on
Estimating        No          Partial         No             No           No              No               No
and Planning
System
Retail
Order
                  No          Partial         No             No           No              No               No
Processing
System
* Partial was assessed due to vulnerability scans conducted by GPO.

      The potential business impact from the eight major legacy applications are
      described below.




                                                        10
Automated Bid List System. ABLS generates random and rotating potential vendor
lists for solicitations based upon order specifications. Vendors are invited to submit
bids and quotes for the solicitations. GPO has three primary methods of soliciting
bids and quotes for procurements. The first method is through solicitations that are
facsimiled, emailed, or physically mailed directly to qualified vendors on a rotational
basis using ABLS. Even if ABLS were offline, GPO has two other methods to solicit
bids and quotes for procurement. The second method is to solicit using public
websites of GPO (www.gpo.gov/bidopps/index.html) and Federal Business
Opportunities website (www.fedbizopps.gov). The third method is directly from the
GPO Procurement Offices. Vendors or vendor’s representatives may visit GPO’s
Central Office Bid Section in Washington, DC or any RO to view available bid
opportunities. The business impact may be minimal if a secondary system is
capable of providing similar functions.

GPO Printing Request Order Control. GPOPROC allows print procurement
customers to place orders directly with a GPO contractor. The GPOPROC: (1)
generates the purchase order, transmittal letter for the Federal agency, and letter to
the vendor is generated, (2) assists with writing the printing specifications, print job
requirements and contract language, and (3) searches for previous and similar
orders. If GPOPROC were unavailable, the entire purchase order may be completed
with ballpoint pen. This may delay procurement activities and make it difficult to
gather and analyze program-wide data.

Microcomp. Microcomp is used to compose the majority of Congressional
documents produced by GPO as well as key Executive agency publications. These
products are printed and disseminated electronically by GPO. An estimated 700
related applications and utilities have been developed over the years to sustain and
enhance Microcomp in order to support the evolving needs of GPO’s Congressional
customers, in-house print and electronic access. If Microcomp were offline, it may
delay the production of Congressional documents as well as key Executive agency
publications.

Paybase. Paybase formats payment files to produce laser checks that incorporate
secure Magnetic Ink Character Recognition (MICR), printing on blank check stock;
processes electronic automated clearinghouse payments; remittance generation and
delivery for both paper checks and electronic payments; and digital archive and
retrieval. MICR refers to the numbers printed on the bottom of the checks. If
Paybase were offline, GPO may be delayed in processing payments in similar
formats.

Procurement Information Control System. PICS is GPO’s main information and
order-tracking system used in large part to support GPO’s print procurement
programs. It provides order entry capability, order status, contractor performance
history, quality records, and exception reports. It also integrates with GPO Proc to
exchange specification details. PICS integrates with PEPS and GBIS. If PICS were
offline, information and order-tracking may be delayed.
                                          11
PICSWEB. PICSWEB is a web-based, user application that enables Government
agencies to access the GPO PICS. PICSWEB provides customer access to central and
regional office records and current job status, quality assurance information
including quality level, press sheet inspection schedules and results, contractor
name and address information, an estimating tool, electronic submission of 2511s
(direct deal print orders only), and electronic submission of Non-Compliance Report
(907). If PICSWEB were offline, GPO customers may not be able to track their print
procurement orders, review quality assurance information, obtain contractor
information, and access estimating tools.

Production on Estimating and Planning System. The PEPS system is used primarily
to facilitate Congressional print jobs as well as print jobs for other federal agencies.
GPO’s plant operations relies on the PEPS to provide production estimating,
scheduling, and tracking functions as well as a centralized point for data collection
and record keeping for in-house production. There are between 100 -150 users of
this application. Prepress, Bindery, Press would be examples of sections within GPO
relying on the data in PEPS for the purpose of tracking job status as they move
between divisions. If PEPS were offline, it could reduce GPO’s ability to complete
printing jobs for Congress and other federal agencies on schedule.

Retail Order Processing System. ROPS is part of an overall sales order system and
used to expedite and control the processing of retail orders—whether keyed
directly into the system or they are included through the batch process from an
outside source. If the application were offline, GPO may have to manually produce
picking tickets, picking lists, and customer order information notices for the
acceptance of orders.

Minor Applications

IT&S reported that streamlined security reviews are conducted for minor
applications and the Authority to Operate process relies on continuous monitoring
and change management approved by the Configuration Control Board.

Agencies are expected to exercise judgment in determining which of their
applications are minor applications and ensure that the security requirements of
those applications are addressed as part of the system security plan for the
applicable general support systems or, in some cases, the applicable major
application. GPO could not demonstrate minor applications and subsystems had
adequate protection established by major applications or general support systems.

It is common that a minor application may have a majority of its security controls
provided by the general support system or major application on which it resides. In
such a case, the information system owner of the general support system or major
application is the information system owner for the minor application and
responsible for developing the system security plan. The additional security
controls specific to the minor application should be documented in the system
                                          12
    security plan as an appendix or paragraph. The minor application owner may
    develop the additional controls.

    The minor application can have a FIPS 199 security category of low or moderate.
    However, if the minor application resides on a system that does not have adequate
    boundary protection, the minor application must implement the minimum baseline
    controls required by the host or interconnected system. Our review of four
    randomly selected minor applications is detailed in Table 2.

Table 2. Information Available for Four Sampled Minor Applications (as of January 2013)
                                                                                              Boundaries
                                                                 Categorized                  Established
                                                                   as Low,     Boundaries         by a
                                                     Risk        Medium, or    Established      General
                                     C&A          Assessment      High Risk     by a Major      Support
                                  Completed?      Completed?     Completed?    Application?     System?
 Minor Application Reviewed        (Yes/No)        (Yes/No)       (Yes/No)       (Yes/No)      (Yes/No)
     Permanent Universal
                                         No             No            No           No             No
  Resource Locators (PURLs)
    Profile, Administration,
   Management And Library                No             No            No           No             No
             Analysis
     Hazard (Substances)
                                         No             No            No           No             No
   Communications System
             GPO.gov                     No           Partial*        No           No             No
* Partial was assessed due to vulnerability scans conducted by GPO.


    Recommendations

    To improve the effectiveness of GPO’s risk acceptance process, we recommend that
    the Chief Information Officer:

    1. Categorize applications as low, moderate, or high risk based on the
       confidentiality, integrity, and availability of the information it stores, process, or
       transmits.

    2. Conduct risk assessments that include, at a minimum, an assessment of the
       sensitivity of data, threats, vulnerabilities, and effectiveness of current/proposed
       safeguards, and document the risk assessments.

    3. Develop procedures or guidance that adequately provides detailed instructions
       for risk acceptance.

    4. Determine if each major application or general support system provides
       adequate protection to subordinate minor applications.




                                                     13
5. Inform business units about the exposure and potential impact on the business
   unit's operations if the security solution in regard to the identified risk(s) is not
   feasible or cannot be implemented.

Management’s Response

Recommendation Number 1: The Chief Information Officer partially concurred. The
Chief Information Officer reported this is a reasonable activity that will require
commitment of additional resources to achieve. IT&S believes this can be
accomplished for the major applications at GPO by December 31, 2013, with existing
IT &S resources. However, the 231 minor applications at GPO cannot be completed
within FY13 or by the end of FY14 without additional resources being provided to
IT &S. It is estimated that that this would be completed by the end of FY14.

Recommendation Number 2: The Chief Information Officer partially concurred. The
Chief Information Officer reported this is a reasonable activity that will require
resource commitments to achieve. Conducting risk assessments is a component
activity contained within Recommendation Number 5. It would be the most
efficient overall to GPO, in the context of all the recommendations in this report, to
conduct the risk assessments as part of the overall Certification and Accreditation
activities in Recommendation Number 5.

Recommendation Number 3: The Chief Information Officer concurred. The Chief
Information Officer reported this is a reasonable activity and IT &S estimates that it
can be completed with existing IT&S resources by December 31, 2013.

Recommendation Number 4: The Chief Information Officer partially concurred. The
Chief Information Officer reported this is a reasonable activity that will require
additional resource commitments for IT &S. There are 231 minor applications listed
on the GPO IT &S Enterprise Architecture site. IT&S estimates there is no capacity
with existing IT &S resources to make the recommended determination. It is
estimated that it would take 18-24 months to complete this based on the
dependency on major application risk assessments and control analysis.

Recommendation Number 5: The Chief Information Officer partially concurred.
IT &S believes that in order to meet this recommendation, it would be most efficient
to conduct the Certification and Accreditation process for all legacy major
applications. IT &S estimates that this activity would require contractor
(professional service) resources to achieve and that 18-24 months of time would be
needed to complete this recommendation following the NIST requirements as the
OIG recommends.




                                           14
Evaluation of Managements Response

The Chief Information Officer indicated these recommendations are reasonable
activities that generally require long-term remediation actions and require a significant
investment by GPO. IT&S is working to implement OIG's recommendations.

We consider management’s planned actions responsive to the recommendations.
The recommendations are resolved and will remain open until planned action is
complete.




                                            15
Appendix A - Objectives, Scope, and Methodology

We performed the audit from September through December 2012 at the GPO
Central Office in Washington, D.C. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence that will
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Objectives

We conducted this audit to answer the following question: “What process did GPO
follow when accepting risks associated with major legacy and minor applications?”

Scope and Methodology

To meet our objectives:

•   We reviewed policies and procedures in place from September to December
    2012.

•   We requested risk assessments and risk acceptance documentation for the eight
    major legacy applications reported by IT&S in September 2012.

•   We randomly selected four minor applications to confirm GPO’s statement that
    C&A’s and risk assessments were not conducted.

•   We conducted interviews with GPO staff to gain an understanding of GPO’s
    policies, procedures, systems, and processes related to risk assessment and
    acceptance as it pertains to information technology.

•   We also interviewed key management officials responsible for establishing and
    monitoring the risk acceptance process; and reviewing and approving the
    acceptance of risk.

We used the results of our work to support our conclusion.

Management Controls Reviewed

We determined that the following internal controls were relevant to our audit
objective:




                                         16
Appendix A - Objectives, Scope, and Methodology

Program Operations – Policies and procedures the GPO management implemented
to reasonably ensure that the risk acceptance process met GPO’s objectives.

Compliance with Laws and Regulations – Policies and procedures that management
has implemented to reasonably ensure that resource use is consistent with laws and
regulations.

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are contained in the
report narrative. Implementing the recommendations in this report should improve
those management control deficiencies.




                                        17
Appendix B – Management’s Response




                             18
Appendix B – Management’s Response




                             19
Appendix B – Management’s Response




                             20
Appendix C - Status of Recommendations


Recommendation        Resolved   Unresolved       Open/ECD*         Closed
      1                  x                            Minor
                                               Applications: End
                                                   of FY 2014
                                              Major Applications:
                                                  12/31/2013
         2                x                    8 months from the
                                                 date additional
                                                   contractor
                                              resources are made
                                                    available
         3                x                       12/31/2013
         4                x                     24 months from
                                              the date additional
                                                   contractor
                                              resources are made
                                                    available
         5                x                     24 months from
                                              the date additional
                                                   contractor
                                              resources are made
                                                    available

*Estimated Completion Date.




                                    21
Appendix D – Final Report Distribution

Acting Public Printer
Assistant Public Printer, Operations
General Counsel




                                       22
Major Contributors to the Report

Daniel Rose, Lead Information Technology Specialist




                                       23
